               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                  Hybrid Mail Efforts

               Management Advisory




                                              February 12, 2013

Report Number SM-MA-13-004
                                                                      February 12, 2013

                                                                   Hybrid Mail Efforts

                                                         Report Number SM-MA-13-004



BACKGROUND:
A hybrid mail system is a service that        was no strategic plan promoting hybrid
allows letters to be sent in digital format   mail products and the affiliated partners’
and be received in hard copy. We              agreements did not include measurable
estimate the potential hybrid mail market     performance goals. In addition, the
for the U.S. Postal Service is small-         Postal Service’s affiliated partners have
and medium-sized businesses with              a small share of the potential hybrid
about 400 million mailpieces annually.        market for small- and medium-sized
                                              businesses, about 3 percent of the
The Postal Service currently offers           estimated $200 million market for hybrid
hybrid mail services through                  mail products. Management could
agreements with three affiliated partners     increase revenue by offering
(Click2Mail, Cardstore.com, and               transactional mail, which includes
Premium Postcard). The Postal Service         invoices, statements, surveys, and
developed its own hybrid mail platform,       reminders; and addressing related
the Direct Mail Hub, in fiscal year           privacy issues. As a result, the Postal
(FY) 2011, which focuses on small- and        Service may have lost $4.1 million of
medium-sized business and allows              potential revenue annually in FYs 2011
users to send their customers direct          and 2012 and could potentially increase
mail. Our objective was to assess             revenue by at least $3.8 million annually
current Postal Service hybrid mail efforts    in FYs 2013 and 2014.
and opportunities to improve these
efforts.                                      WHAT THE OIG RECOMMENDED:
                                              We recommended that management
WHAT THE OIG FOUND:                           develop a business strategy for hybrid
The Postal Service could improve its          mail and establish measurable goals for
hybrid mail efforts by developing a           affiliated partners to increase revenue.
business strategy to increase the             In September 2012, Postal Service
revenue and market share of its current       management took partial corrective
hybrid mail products. Specifically, we        action by establishing revenue goals
noted that Postal Service’s revenue with      with the affiliated partners.
affiliated partners dropped 58 percent,
from $11.4 million in FY 2007 to              Link to review the entire report
$4.8 million in FY 2011 because there
February 12, 2013

MEMORANDUM FOR:            GARY REBLIN
                           VICE PRESIDENT, NEW PRODUCTS AND INNOVATION




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Hybrid Mail Efforts
                           (Report Number SM-MA-13-004)

This report presents the results of our review of the U.S. Postal Service’s Hybrid Mail
Efforts (Project Number 12YG026DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Kelly M. Sigmon
    Mary B. Fluto
    Patricia M. Mason
    Corporate Audit and Response Management
Hybrid Mail Efforts                                                                                               SM-MA-13-004




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ......................................................................................... 9

Appendix C: Management's Comment .......................................................................... 11
Hybrid Mail Efforts                                                            SM-MA-13-004




Introduction

This report presents the results of our review of the U.S. Postal Service’s current hybrid
mail efforts (Project Number 12YG026DA000). Our objective was to assess current
Postal Service hybrid mail offerings and opportunities to improve these efforts. This
self -initiated review addresses strategic risks. See Appendix A for additional
information about this review.

A hybrid mail system is a service that allows letters to be sent in digital format and
received by the recipient in hard copy. We estimate that the potential hybrid mail market
for the Postal Service is small- and medium-sized enterprises with about 400 million
mailpieces annually. The Postal Service offers hybrid mail services through agreements
with three affiliated partners: Click2Mail, Cardstore.com, and Premium Postcard. Under
these agreements, the Postal Service receives postage revenue and a share of
partners’ production revenue for all customers who register with the partners through
usps.com. In fiscal year (FY) 2011, the Postal Service developed its own hybrid mail
platform, Direct Mail Hub, which focuses on small- to medium-sized businesses and
allows users to send their customers advertising mail directly. Because Direct Mail Hub
was still in early development, we focused our review on the Postal Service’s three
affiliated partners.

Conclusion

The Postal Service could improve its hybrid mail efforts by developing a business
strategy to increase the revenue and market share of its current hybrid mail products.
Specifically, we noted that the Postal Service’s revenue with affiliated partners dropped
58 percent, from $11.4 million in FY 2007 to $4.8 million in FY 2011 because there was
no strategic plan promoting hybrid mail products and the affiliated partners’ agreements
did not include measurable performance goals. The Postal Service’s affiliated partners
have a small share of the potential hybrid market for small- and medium-sized
businesses, about 3 percent of the estimated $200 million market for hybrid mail
products. In addition, management could increase revenue by offering transactional
mail, which includes invoices, statements, surveys, and reminders; and addressing
related privacy issues. As a result, the Postal Service may have lost $4.1 million of
potential revenue annually in FYs 2011 and 2012 and could potentially increase
revenue by at least $3.8 million annually in FYs 2013 and 2014.

Revenue from Affiliated Partners

The Postal Service’s affiliated partners’ revenue dropped 58 percent, from $11.4 million
in FY 2007 to $4.8 million in FY 2011. Click2Mail experienced a 57-percent revenue
decline, from $9.4 million in FY 2007 to $4.1 million in FY 2011. Similarly, Premium
Postcard’s revenue declined 59 percent, from $1.6 million in FY 2007 to $676,562 in
FY 2011. Finally, Cardstore.com’s revenue dropped 80 percent, from $306,950 to
$61,418 during the same period.



                                            1
Hybrid Mail Efforts                                                                                    SM-MA-13-004




The decline in hybrid mail revenue from affiliated partners occurred because Postal
Service officials did not have a strategic plan for promoting hybrid mail products. They
were focusing on improving the Postal Service’s external website, usps.com. In
addition, the affiliated partners’ agreements did not include measurable performance
goals. Without a strategic plan, there is reduced emphasis on growing this business. In
addition, the affiliated partners attributed this revenue loss to their products no longer
being prominently displayed on usps.com. This decreased exposure may have
contributed to the year-on-year reduction of traffic and revenue since FY 2008.

                        Table 1: Hybrid Mail Affiliated Partners' Revenue
                                         FYs 2007–2011




Source: Postal Service affiliated partners’ revenue data.

Market Share Opportunities

The Postal Service has taken steps to enhance its hybrid mail solutions for advertising
mail to the small- and medium-sized business market through the Direct Mail Hub.
However, it could increase its share in this market by developing a strategy with its
affiliated partners to offer hybrid mail products that include both advertising mail1 and
transactional mail and overcome a privacy barrier associated with transactional mail.

The Postal Service’s affiliated partners have a small share of the potential hybrid market
for small- and medium-sized businesses, about $4.8 million annually, which represents
about 3 percent of the market. The Postal Service’s potential market for hybrid mail

1
  A form of direct advertising where printed materials are delivered through the mail service to a target demographic.
It can include items such as coupons, fliers, circulars, and ‘pre-approved’ applications.


                                                            2
Hybrid Mail Efforts                                                                                   SM-MA-13-004



products — including both advertising and transactional mail components — could be
about $200 million annually.

The Postal Service could increase its share of the hybrid mail market if small- and
medium-size business customers used hybrid mail for their transactions. Various foreign
posts have successfully introduced hybrid mail, including transactional mail, such as
invoices and statements. Transactional mail is the key to hybrid mail production due to
its high volume, frequency of distribution, and importance to the senders. It is unlikely
the Postal Service can increase hybrid mail revenue for small- and medium-sized
business enterprises without offering solutions for correspondence and transaction mail.

Further, the ability to maintain privacy for hybrid mail content is a barrier to adoption by
small- and medium-sized businesses. Privacy is very important to these firms,
especially for transactional mail, because specific content is tied to the relationship
between the sender and the receiver. The Postal Service is well positioned to address
this concern. The Postal Service brand has an excellent reputation for protecting
privacy. It has consistently rated among the most trusted federal agencies and U.S.
businesses in the Ponemon Institute’s annual survey of leading consumer brands.

By implementing a strategy with its affiliated partners to increase revenue and market
share of small- and medium-sized businesses, the Postal Service could potentially
increase revenue in the hybrid mail market. In addition, the Postal Service and its
affiliated partners are well positioned to educate small businesses on the benefits and
value of hybrid mail to overcome their privacy concerns. The Postal Service’s Direct
Mail Hub offers educational and informational advice for mailers and customers can
receive online help from the three affiliated partners’ websites. Each of the websites
contains frequently asked questions and a place where customers can send specific
questions concerning their mailings.

Without a business strategy and measurable performance goals in the affiliated
partners’ contracts and with the decreased prominence of the affiliated partners’
products on usps.com, the Postal Service may have lost $4.1 million of potential
revenue annually in FYs 2011 and 2012 and could potentially increase revenue by at
least $3.8 million annually in FYs 2013 and 2014.2

Recommendations

We recommend the vice president, New Products and Innovation:

1. Develop a business strategy to increase hybrid mail revenue for small- and
   medium-sized businesses if profitable and feasible (including transactional mail) and
   overcome privacy concerns.

2
  We classify these amounts as revenue loss. Revenue loss applies to funds, such as postage, retail, sales, rent, and
leases; or fees the Postal Service is entitled to receive but was underpaid or not realized because policies,
procedures, agreements, or requirements were lacking or not followed. The revenue loss category may be used for
historical and future periods.


                                                          3
Hybrid Mail Efforts                                                                SM-MA-13-004




2. Establish measurable goals with affiliated partners to increase revenue.

Management’s Comments

Management agreed with all of the findings and recommendations. In subsequent
correspondence, management stated that they agreed with our monetary impact.
Regarding recommendation 1, management stated this was completed as part of a
Delivering Results, Innovation, Value, and Efficiency initiative that outlines a dynamic
business strategy intended to maximize their growth potential in the evolving digital
marketplace. This strategy requires a much broader evaluation of the electronic and
hard copy communications dynamics than what has traditionally known as hybrid mail.

For recommendation 2, management stated that they met with the three affiliates in
September 2012 to establish a measurable goal of a 5 percent increase in revenue for
FY 2013 and establish a process to discuss strategy and measure success at quarterly
meetings. Management also made changes on usps.com in October 2012 to improve
the customer experience and reduce the number of clicks to the affiliates' page. They
also rotate the order the affiliates are displayed to give equal representation and chance
to interact with the customer. Lastly, in December 2012 management ran an usps.com
home page banner promoting the affiliates' holiday discount.

Management believed that the limited scope of our audit prevented an accurate view of
the Postal Service's overarching business strategy surrounding digital and hybrid mail.
They also believed that limiting the audit to their affiliated partners fell short of
holistically looking at all of their initiatives encouraging digital integration with mail. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. Management considers their corrective
actions to recommendation 1 to be completed based on the Delivering Results, Innovation,
Value, and Efficiency initiative 14. This initiative generally describes the Postal Service's
future efforts to grow digital and hybrid mail, but does not contain the specificity and
detailed support we need to close recommendation 1.

In regards to management’s statement about the limited scope of our review, we met
with Postal Service management several times to collaborate on the scope and
methodology used to assess their digital and hybrid mail strategy. Throughout the
process, management agreed with our approach to evaluate the Postal Service's
current hybrid mail products and barriers those products must overcome in order to
implement a successful hybrid solution.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Since management implemented corrective actions to


                                               4
Hybrid Mail Efforts                                                        SM-MA-13-004



resolve recommendation 2 based on our audit, we will close this recommendation on
issuance of this report. The OIG requests written confirmation when corrective actions
are completed for recommendation 1. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                          5
Hybrid Mail Efforts                                                                          SM-MA-13-004



                                Appendix A: Additional Information

Background

A hybrid mail system is a service that allows letters to be sent in digital format and
received by the recipient in their physical form in an envelope. The potential hybrid mail
market for the Postal Service is small- and medium-sized businesses with about
400 million mailpieces annually. See Table 2 for a visual representation of the difference
between the traditional and hybrid processes.

                Table 2: Traditional and Hybrid Mail Process Comparison




Source: Hybrid Mail Strategic Overview Report, May 2010, prepared by Triangle consultants.

The Postal Service has agreements with three affiliated partners, Click2Mail, Premium
Postcard, and Cardstore.com. Under these agreements, the Postal Service receives
postage revenue and a share of its partners’ production revenue for all customers that
registered with the partners through usps.com.

    Click2Mail began providing web browser-based tools for creating, personalizing,
     and proofing mailpieces and for acquiring, building, and managing mailing lists in
     2003.

   Premium Postcard began in 1999 as a site that allowed consumers to send
    photograph postcards to friends and family. Businesses quickly realized that they
    could use the same process to simplify their direct mail campaigns. It offers self-
    service and full-service direct mail.




                                                        6
Hybrid Mail Efforts                                                           SM-MA-13-004




    Cardstore.com was launched in 1999 and acquired by American Greetings
     Corporation in 2010. Customers can use Cardstore.com’s templates to turn their
     photographs into cards for birthdays, holidays, or announcements.

The Direct Mail Hub is an online platform designed to educate small businesses on
direct mail and help them generate mailings from start-to-finish. The Postal Service
piloted it in two markets: Raleigh, NC and Austin, TX. In August 2011, another
third-party partner, DirectMailQuotes, became part of the Direct Mail Hub.
DirectMailQuotes matches a small business customer’s particular mailing needs to a
network of mail service providers. The Direct Mail Hub also includes the Do-It-Yourself
Direct Mail Hub, which provides an online solution that guides customers step-by-step
through the process of creating a mail campaign.

Objective, Scope, and Methodology

Our objective was to assess current Postal Service hybrid mail efforts and opportunities
to improve them. Because the Direct Mail Hub was still in early development, we
focused our review on the three Postal Service affiliated partners (Click2Mail, Premium
Postcard, and Cardstore.com). To accomplish our objective, we employed a third-party
contractor that focuses on supply chain and logistics operations management, including
the postal and mailing industry, to assist us with this project. Specifically, we worked
with the contractor to:

   Perform the research and analysis required to determine the viability of the Postal
    Service’s hybrid mail product and service offerings.
   Identify the market for postal hybrid mail solutions in the U.S.
   Identify the Postal Service’s opportunities in the marketplace.
   Identify potential revenue the Postal Service could derive by enhancing and
    expanding its hybrid mail products, services, and solutions.
   Evaluate the Postal Service’s current hybrid mail products and identify potential new
    or expanded hybrid mail services.
   Identify barriers the Postal Service must overcome to implement successful hybrid
    mail solutions and strategies the Postal Service can use to overcome these barriers.
We conducted this review from April through February 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on December 21, 2012, and included their comments where appropriate.

We assessed the reliability of the computer-generated revenue data used in our
analyses by interviewing Postal Service personnel knowledgeable about the data. We
determined that the data were sufficiently reliable for the purposes of this report.



                                              7
Hybrid Mail Efforts                                                                               SM-MA-13-004




Prior Audit Coverage

                                                                            Final              Monetary
              Report Title3                   Report Number              Report Date            Impact
    Bridging the Digital Divide:             RARC-WP-12-004              11/22/2011              None
    Overcoming Regulatory and
    Organizational Challenges
    Report Results: The Postal Service has the assets and infrastructure to operate as a
    platform bridging physical and digital communications. Additionally, we conducted an
    extensive analysis of the current regulatory environment and concluded that current
    regulations provide a legal path for the Postal Service to operate a digital platform and offer
    other digital services.

    Postal Service Revenue:                 RARC-WP-12-002         10/6/2011              None
    Structure, Facts, and Future
    Possibilities
    Report Results: The Postal Service must overcome various barriers to introduce new
    sources of revenue: four statutory barriers, three regulatory barriers, three intuitional
    barriers, three political barriers, and one financial barrier.


    The Postal Service Role in the        RARC-WP-11-003          4/19/2011            None
    Digital Age Part 2: Expanding
    the Postal Platform
    Report Results: Pairing eMailbox with hybrid and reverse hybrid mail applications can
    further encourage innovation to pair physical mail with its digitized counterpart and
    electronic mail with its physical equivalent. This hybrid focus would further enhance the
    value of the electronic platform and connect more people to the network. In these
    applications, hybrid mail employs the convenience, low cost, perceived environmental
    benefits, and speed of digital transmission and display with the desired appeal and
    familiarity of conventional letters and cards.

    The Postal Service Role in the         RARC-WP-11-002         2/24/2011                None
    Digital Age Part 1: Facts and
    Trends
    Report Results: The Postal Service could establish an enabling platform to bridge the
    digital divide and allow citizens to traverse from the physical to the digital. This role may
    take on many different forms, but by working with leading web service providers, the Postal
    Service has the opportunity to shape and enforce industry standards that fill identified gaps
    in the digital marketplace. The Postal Service must establish a pivotal role for itself in this
    new emerging world to ensure its future relevance.




3
 The reports cited here are technical research papers prepared by the OIG Risk Analysis Research Center . As
such, these reports do not have associated recommendations.


                                                        8
Hybrid Mail Efforts                                                                                     SM-MA-13-004




                                      Appendix B: Monetary Impact

           Recommendation                      Impact Category                               Amount
                 1                       FYs 2011 and 2012 Revenue                            $8,158,447
                                         Loss4
                       1                 FYs 2013 and 2014 Revenue                              7,588,055
                                         Loss
          Total                                                                            $15,746, 502

Monetary Impact Technical Description

The premise for the monetary impact calculations is the Postal Service’s lost revenue
because it does not have a business strategy for these hybrid products and the
agreements with the affiliated partners do not include goals. We looked at each of the
three affiliated partners, Click2Mail, Premium Postcard, and Cardstore.com. For each of
them we analyzed lost postage revenue and lost production revenue separately.
Therefore, we performed six identical analyses using the methodology described as
follows.

In our monetary impact model, ‘expected revenue’ minus ‘actual revenue’ equals
‘revenue loss.’ We used FY 2007 actual revenue as the baseline for predicting
‘expected revenue’ for FYs 2008 through 2014. We assumed the revenue achieved in
FY 2007 was indicative of the revenue which should have been achieved (adjusting for
overall mail volume decreases) in subsequent years if the Postal Service had better
managed the programs.

We obtained the Postal Service First-Class Mail and Standard Mail annual mail volume
data for FYs 2007-2011. Using a linear regression trend line for FY 2007-2011 mail
volume, we predicted mail volume for FYs 2012-2014 and calculated the apparent
percentage of decreased mail volume for FYs 2008-2014.

We then applied the calculated percentage of decreased mail volume to the FY 2007
expected revenue baseline to predict the expected revenue for FYs 2008-2014. We
were also able to obtain actual revenue data for FYs 2007-2011. We used the three
actual revenue data points of FYs 2009-2011 for Click2Mail and Cardstore.com and
FYs 2010-2011 for Premium Postcard as the basis for predicting actual revenue for
FYs 2012-2014, using a linear regression trend line.

The differences between the predicted expected revenue amounts and the predicted
actual revenue amounts for FYs 2011-2014 comprise the monetary impact for this audit.
We categorized this amount as revenue loss.


4
  Revenue loss applies to funds such as postage, retail, sales, rent, and leases; or fees the Postal Service is entitled
to receive but was underpaid or not realized because policies, procedures, agreements, or requirements were lacking
or not followed. The revenue loss category may be used for historical and future periods.


                                                           9
Hybrid Mail Efforts                                                      SM-MA-13-004




                           FYs 2011 and 2012 Revenue Loss
            Click2Mail                                          $6,665,146
            Premium Postcard                                     1,151,369
            Cardstore.com                                          341,932
            Total FYs 2011 and 2012 Revenue Loss                $8,158,447

                               FYs 2013 and 2014 Revenue Loss
            Click2Mail                                          $6,480,646
            Premium Postcard                                       842,434
            Cardstore.com                                          264,975
            Total FYs 2013 and 2014 Revenue Loss                $7,588,055
           Source: OIG analysis as of December 2012.

The annualized revenue loss is $4,079,224 for FY's 2011 and 2012. The annualized
revenue loss is $3,794,028 for FYs 2013 and 2014.




                                                       10
Hybrid Mail Efforts                                      SM-MA-13-004



                      Appendix C: Management's Comment




                                     11
Hybrid Mail Efforts        SM-MA-13-004




                      12
Hybrid Mail Efforts        SM-MA-13-004




                      13
